         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Briefing Report




       Self-reported Data Unreliable for
       Assessing EPA’s Computer
       Security Program
       Report No. 10-P-0058

       February 2, 2010
Report Contributors:                           Rudolph M. Brevard
                                               Cheryl Reid
                                               Vincent Campbell
                                               Warren Brooks
                                               Christina Nelson
                                               Sabrena Stewart
                                               Dave Cofer
                                               Anita Mooney




Abbreviations

AC           Access Control
ASSERT       Automated System Security Evaluation and Remediation Tracking
AU           Audit and Accountability
C&A          Certification and Accreditation
CM           Configuration Management
EPA          U.S. Environmental Protection Agency
FIPS         Federal Information Processing Standards
FY           Fiscal Year
IV&V         Independent Validation and Verification
MA           Maintenance
NIST         National Institute of Standards and Technology
OIG          Office of Inspector General
POA&Ms       Plans of Action and Milestones
                       U.S. Environmental Protection Agency 	                                             10-P-0058
                                                                                                    February 2, 2010
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment


Why We Did This Review           Self-reported Data Unreliable for Assessing
We sought to determine           EPA’s Computer Security Program
whether the U.S.
Environmental Protection          What We Found
Agency (EPA) implemented
management control processes     The oversight and monitoring procedures for ASSERT provide limited assurance
for maintaining the quality of   the data are reliable for assessing EPA’s computer security program. As a result:
data in the Automated System
Security Evaluation and              • Unsubstantiated responses for self-reported information contribute to data
Remediation Tracking                   quality problems.
(ASSERT) system.                     • Limited independent reviews and lack of follow-up inhibit EPA’s ability to
                                       identify and correct data inaccuracies.
Background                           • Independent reviews lack coordination with certification and accreditation
                                       activities.
EPA uses the ASSERT online           • Information security personnel believe they need more training on how to
tool to gather information             assess security controls and feel pressure to answer system security
regarding testing and                  questions in a positive manner.
evaluating Agency                    • Limited internal reporting on required security controls and missing
information systems, and               information in security plans inhibit external reporting.
tracking progress made in
fixing identified security        Further, incomplete security documentation raises concerns as to whether the
weaknesses. EPA also uses         ASSERT application contractor is meeting federal requirements.
ASSERT to generate reports
provided to the Office of
                                  What We Recommend
Management and Budget
pursuant to the Federal
                                 We recommend that the Assistant Administrator for Environmental Information
Information Security
                                 issue a memorandum to Assistant Administrators and Regional Administrators
Management Act.
                                 emphasizing the importance of ensuring personnel accurately assess and report
                                 information in ASSERT.

For further information,
                                 We also recommend that the Director, Office of Technology Operations and
contact our Office of            Planning, integrate ongoing independent reviews with the Agency’s Certification
Congressional, Public Affairs    and Accreditation process, provide periodic training on how to assess and
and Management at                document required minimum security controls, expand the Agency’s security
(202) 566-2391.
                                 reporting process to include collecting information on all required minimum
To view the full report,         security controls, and implement a process to verify that Agency security plans
click on the following link:     incorporate all the minimally required system security controls.
www.epa.gov/oig/reports/2010/
20100202-10-P-0058.pdf           The Agency agreed with all of our findings and recommendations.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                    OFFICE OF
                                                                               INSPECTOR GENERAL




                                        February 2, 2010

MEMORANDUM

SUBJECT:	             Self-reported Data Unreliable for Assessing
                      EPA’s Computer Security Program
                      Report No. 10-P-0058


FROM:	                Rudolph M. Brevard
                      Director, Information Resources Management Assessments

TO:	                  Linda Travers
                      Acting Assistant Administrator for Environmental Information and
                      Acting Chief Information Officer

                      Vaughn Noga
                      Acting Director, Office of Technology Operations and Planning


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

We sought to determine whether EPA has a mechanism to monitor the quality of self-reported
information systems security data. In particular, we assessed to what extent EPA:

   •	 Implemented an organizational structure for monitoring data quality in the Automated
      System Security Evaluation and Remediation Tracking (ASSERT) system.
   • Implemented policies and procedures for managing data quality internally.
   • Conducted follow-up activities to ensure responsible officials correct weaknesses.
   •	 Implemented procedures to ensure that the ASSERT contractor adheres to federal 

      information security requirements. 

                                                                                          10-P-0058


We conducted this audit between January 2008 and September 2009, at EPA Headquarters in
Washington, DC, in accordance with generally accepted government auditing standards issued
by the Comptroller General of the United States. These standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions.

We reviewed information entered in ASSERT as of September 2007. This information
represented EPA offices’ self-reported compliance status with National Institute of Standards
and Technology (NIST) information systems security controls, as part of the Fiscal Year 2007
Federal Information Security Management Act evaluation. Appendix A provides the federal
criteria used for this review and a description of ASSERT modules.

We randomly selected 5 NIST security controls and 51 EPA systems in ASSERT that had Fiscal
Year 2007 self-reported compliance information. We reviewed the information to determine
whether it agreed with the details in the respective systems’ security plan. Appendix B contains
the list of EPA systems extracted from ASSERT and our methodology and summary of results.
Appendix C contains the description of each NIST-reviewed security control.

We surveyed Agency information security personnel who completed the ASSERT Fiscal Year
2007 self-assessments for the reviewed systems. We solicited information on the quality of
Agency-provided training and guidance to complete the annual security control self-assessments.
We also solicited information as to whether the annual self-assessments added value in helping
them protect and evaluate their respective information security programs and whether there was
undue pressure by management to answer the self-assessment questions.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $511,930.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates.

We would like to thank your staff for their cooperation. We have no objections to the further
release of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0893
or brevard.rudy@epa.gov; or Vincent Campbell, Project Manager, at (202) 566-2540 or
campbell.vincent@epa.gov.
Self-reported Data Unreliable for
Assessing EPA’s Computer
Security Program

        Results of Review




               10-P-0058            1
    Audit Methodology
   Reviewed self-reported system security information entered in the Automated
    System Security Evaluation and Remediation Tracking (ASSERT) system as of
    September 2007.

   Reviewed EPA’s organizational structure responsible for managing the quality
    of data in the ASSERT system.

   Evaluated self-reported system security information for 51 EPA systems.
    Reviewed information for compliance with five required National Institute of
    Standards and Technology (NIST) security controls.

   Surveyed Agency information security personnel who entered the self-reported
    system security information into ASSERT. Solicited opinions on the quality of
    training, guidance, and management support for self-reporting system security
    information.

   Evaluated EPA procedures used to ensure the ASSERT contractor adheres to
    federal system security guidance.



                                        10-P-0058                                  2
Noted Accomplishments

In response to Office of Inspector General audit, EPA’s Computer
Security Self-Assessment Needs Improvement, Report No. 2003-P-
00017, September 30, 2003, Office of Environmental Information:
   Updated the ASSERT application to include a test and an implement control
    feature.

   Developed and implemented an independent verification and validation
    process to monitor and evaluate self-assessment responses in ASSERT.

   Developed and implemented technical vulnerability assessment lab
    methodology to evaluate authentication and identification controls.

   Issued an Agency-wide memorandum stipulating all security plans must be
    prepared in compliance with NIST.




                                     10-P-0058                                3
Finding 1



   Better Data Quality Processes Needed to Improve
   Accuracy of Self-reported Data




                     10-P-0058                       4
Better Data Quality Processes Needed to 

Improve Accuracy of Self-reported Data

Unsubstantiated Responses for Self-reported System Security
Information Contribute to Data Quality Problems
   Only 17% (71 of 408) of self-reported ASSERT entries had supporting
    information in security plans.

   Unsubstantiated responses resulted from EPA offices:
     Entering ASSERT data based on institutional knowledge rather than
      information documented in the security plan.

       Preparing the security plans in a general manner that did not include
        specific details on how each security control is implemented.

       Using risk assessment results that did not fully test NIST security
        controls.


                                       10-P-0058                                5
Better Data Quality Processes Needed to 

Improve Accuracy of Self-reported Data

Limited Independent Validation & Verification (IV&V) and Lack of
Follow-up Inhibit EPA’s Ability to Identify and Correct Data
Inaccuracies
   From Fiscal Year (FY) 2005 through 2007, 15 IV&V assessments were
    conducted - (9% of the 171 systems tracked in ASSERT).

   No requirement for EPA offices to enter Plans of Action and Milestones
    (POA&Ms) in ASSERT for unresolved IV&V findings.

   EPA offices not required to provide documentation to EPA’s Technology and
    Information Security Staff to support steps taken to resolve findings.




                                    10-P-0058                                6
Better Data Quality Processes Needed to 

Improve Accuracy of Self-reported Data

IV&V Program Lacks Coordination With Certification & 

Accreditation (C&A) Activities

   IV&V Process:
        Takes place after EPA offices complete security activities associated
         with authorizing their system for operation.

          Does not focus on whether EPA offices designed planned security
           activities according to applicable guidance and executed the plans
           as planned.

          Lacks method to assist system owners in designing and executing
           C&A activities consistent with federal guidance.

          Does not identify and track identified weaknesses along with
           corrective actions.



                                      10-P-0058                                  7
OIG Recommendation
Director, Office of Technology Operations and Planning should:

1-1	 Develop and implement an assessment process that integrates
     independent reviews with the Agency’s Certification and Accreditation
     process. The newly structured assessment process should focus more on
     ensuring EPA offices (a) plan and execute security activities required to
     authorize system operations, and (b) complete security activities that
     comply with federal and Agency guidance. The newly structured process
     should also ensure EPA offices create Plans of Action and Milestones for
     any identified weaknesses. The newly structured process should also
     track identified weaknesses and ensure EPA offices retain documentation
     that supports the remediation of all identified weaknesses.




                                    10-P-0058                                8
EPA’s Response to Briefing

EPA indicated it would perform the following actions:

   Implement a quality review process along with establishing an interagency
    agreement to improve the quality of the C&A products and reporting of
    POA&Ms.

   Hire an information security person to manage POA&Ms based on results
    from internal and external reviews.

   Adopt a manual escalation procedure to the Senior Information Official to
    remediate unresolved POA&Ms. This process is expected to be automated
    using a new C&A tool (Telos Xacta). The automated process will help
    eliminate arbitrary date shifts and permit storage of C&A artifacts. ASSERT
    will be modified to facilitate these activities.

   Increase the IV&V review to cover 10% of the Agency’s information systems
    along with full coverage of all financial systems and the associated general
    support systems.



                                      10-P-0058                                    9
Finding 2



   Better Guidance and Management Support Needed to
   Foster Accurate Security Reporting




                    10-P-0058                         10
Better Guidance and Management Support 

Needed to Foster Accurate Security Reporting

Not Properly Assessing Security Controls Contributes to Invalid
Data in ASSERT
Survey responses regarding the level of training, guidance, and management
support for self-reporting system security information disclosed:


   68% of respondents believed they had not been educated on how to fully
    assess the NIST 800-53 security controls in ASSERT. Some respondents
    are confused about how to assess controls when there are shared
    responsibilities between the general support system and major applications,
    or between Headquarters and regional offices. Respondents stated that
    Agency personnel typically refer them to NIST policies for guidance, instead
    of providing direct assistance when there is uncertainty about how to assess
    a security control within the ASSERT application.




                                    10-P-0058                                11
Better Guidance and Management Support
Needed to Foster Accurate Security Reporting
Not Properly Assessing Security Controls Contributes to Invalid 

Data in ASSERT (Continued)

   47% of respondents believed more training is needed when EPA introduces
    newer versions of ASSERT. Respondents indicated that ASSERT has gone
    through numerous changes and updates that have contributed to a longer
    learning curve. Respondents believe EPA could have done a better job in
    communicating system changes, providing notice when training would be
    given, and scheduling training in advance of critical ASSERT due dates.

   68% of respondents felt pressured to answer system security questions in
    ASSERT in a positive way, even in situations where a specific security
    control had not been properly tested and implemented. Some respondents
    believe that the emphasis is on EPA maintaining an “A” rating on the federal
    information security scorecard. Some respondents felt the lack of resources
    and time constraints led them to view providing self-reported system security
    information as a “check-the-box” exercise, with the emphasis on using the
    ASSERT application instead of assessing security.


                                     10-P-0058                                 12
OIG Recommendations


Director, Office of Technology Operations and Planning should:

2-1 	Provide periodic training (at least quarterly and during the annual Security
     Conference) on how to assess and document the implementation of
     minimum security controls as required by NIST guidance.


Assistant Administrator for Environmental Information and Chief Information
Officer should:

2-2 	Issue a memorandum to Assistant and Regional Administrators to
     emphasize the importance of ensuring personnel accurately assess and
     report security information in the ASSERT system.




                                     10-P-0058                                  13
    EPA’s Response to Briefing

EPA indicated it would take the following actions:

    Implement quarterly training sessions on the C&A activities.

    Implement a 3-day hands-on “road show” with Agency system staff to review
     specific information security packages and associated POA&Ms.

    Implement a mandatory review of all draft and new NIST documents via
     Quick Place and discuss how the documents apply to EPA.

    Negotiate a baseline and refresher role-based training course as part of the
     Agency’s Information Security Training, Education and Awareness curriculum
     for C&A.

    Prepare a memorandum from the Chief Information Officer on the importance
     of accurately assessing and reporting security information in the ASSERT
     system.




                                        10-P-0058                               14
Finding 3



   EPA Not Fully Reporting the Status of Its Security
   Program




                      10-P-0058                         15
EPA Not Fully Reporting the Status of Its 

Security Program
Limited Internal Reporting on Required Information System
Security Controls Inhibits External Reporting

   EPA offices evaluated and provided self-reported information on only 24%
    (41 of 171) of the required NIST controls as part of the Agency’s annual
    review of its information security program.

   Evaluation excluded all security controls associated with the (1) Media
    Protection, and (2) System and Communications Protection security
    categories.




                                     10-P-0058                                 16
EPA Not Fully Reporting the Status of Its 

Security Program
Missing Information in Security Plans Fosters Incomplete
Reporting on EPA’s Security Program

   EPA offices lacked the information needed to answer system security
    questions.
        EPA offices lacked up-to-date security plans. 80% of reviewed
           security plans had not been updated since NIST issued the first
           revision of Special Publication 800-53, Recommended Security
           Controls for Federal Information Systems, in December 2006.

          Only 2 of the 10 reviewed security plans documented all the NIST
           security controls.




                                     10-P-0058                                17
OIG Recommendations

Director, Office of Technology Operations and Planning should:

 3-1 	Expand the Agency’s annual system security self-reporting process to
      include collecting information on all NIST minimum required system
      security controls.

 3-2 	Implement a process to verify that Agency security plans incorporate
      all the minimum required system security controls as prescribed by
      NIST. This process should include establishing a target date by which
      the Agency security plans will comply with the current NIST guidance.




                                    10-P-0058                                 18
EPA’s Response to Briefing


EPA indicated it would take the following actions:

   Procure a new C&A Tool (Telos Xacta). Once implemented, the tool will
    require all C&A artifacts to be published, stored and maintained.

   Implement a quality review process for C&A activities and newly published
    NIST documents.

   Develop an Agency governance board to ensure newly issued federal
    requirements are implemented in a timely fashion.




                                     10-P-0058                                  19
Finding 4



   ASSERT Application Needs Security Planning





                    10-P-0058                    20
ASSERT Application Needs Security Planning

Incomplete Security Documentation Raises Concerns Whether the
ASSERT Application Contractor is Meeting Federal Requirements


   ASSERT application security plan does not comply with federal security
    requirements. The security plan lacks specific information on how the
    required NIST security controls were implemented for three of the five
    reviewed areas.

   ASSERT application lacks an approved contingency plan.




                                   10-P-0058                                 21
EPA’s Response to Briefing

Based on our audit, EPA took the following actions:

   Updated the ASSERT C&A packages in accordance with applicable NIST
    guidance.

   Updated and approved the ASSERT Contingency Plan in accordance with
    applicable NIST guidance.




                                    10-P-0058                             22
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed To
    No.      No.                          Subject                         Status1         Action Official              Date      Amount      Amount

    1-1       8     Develop and implement an assessment process             O           Director, Office of
                    that integrates independent reviews with the                    Technology Operations and
                    Agency’s Certification and Accreditation process.                       Planning
                    The newly structured assessment process should
                    focus more on ensuring EPA offices (a) plan and
                    execute security activities required to authorize
                    system operations, and (b) complete security
                    activities that comply with federal and Agency
                    guidance. The newly structured process should
                    also ensure EPA offices create Plans of Action and
                    Milestones for any identified weaknesses. The
                    newly structured process should also track
                    identified weaknesses and ensure EPA offices
                    retain documentation that supports the remediation
                    of all identified weaknesses.

    2-1      13     Provide periodic training (at least quarterly and       O           Director, Office of
                    during the annual Security Conference) on how to                Technology Operations and
                    assess and document the implementation of                               Planning
                    minimum security controls as required by NIST
                    guidance.

    2-2       13    Issue a memorandum to Assistant and Regional            O        Assistant Administrator for
                    Administrators to emphasize the importance of                    Environmental Information
                    ensuring personnel accurately assess and report                 and Chief Information Officer
                    security information in the ASSERT system.

    3-1      18     Expand the Agency’s annual system security self-        O           Director, Office of
                    reporting process to include collecting information             Technology Operations and
                    on all NIST minimum required system security                            Planning
                    controls.

    3-2       18    Implement a process to verify that Agency security      O           Director, Office of
                    plans incorporate all the minimum required system               Technology Operations and
                    security controls as prescribed by NIST. This                           Planning
                    process should include establishing a target date
                    by which the Agency security plans will comply with
                    the current NIST guidance.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                23 

                                                                                    10-P-0058


                                                                                Appendix A

   Audit Criteria and Description of ASSERT Modules
Applicable Federal Guidance

   •	 Federal Information Processing Standards (FIPS) 200, Minimum Security Requirements
      for Federal Information and Information Systems, specifies minimum security
      requirements for information and information systems supporting the executive agencies
      of the Federal Government.
   •	 NIST 800-18, Guide for Developing Security Plans for Information Systems, states that
      system security plans should provide a thorough description of how minimum security
      controls are being implemented or planned to be implemented.
   •	 NIST 800-34, Contingency Planning Guide for Information Technology Systems,
      provides instructions, recommendations, and considerations for Information Technology
      Systems contingency planning. Contingency planning contains interim measures to
      recover IT services following an emergency or system disruption.
   •	 NIST 800-53, Recommended Security Controls for Federal Information Systems,
      provides guidance to federal agencies implementing FIPS 200. The 17 security control
      families in NIST 800-53 are closely aligned with the 17 security-related areas in FIPS
      200 for protecting federal information.

Description of ASSERT System Modules

ASSERT contains three modules: (1) Security Self-Assessments, (2) Remediation Tracking, and
(3) System Categorization.

The ASSERT system security self-assessment module is based on NIST 800-53. The electronic
entry of the responses to the assessment and EPA-established goals will automatically create
POA&Ms to remediate vulnerabilities identified in the assessment.

The ASSERT remediation module electronically creates an EPA-established standardized
approach for developing POA&Ms that respond to weaknesses developed by assessment or
security reviews. POA&M tasks can be automatically generated by the self-assessment process
or entered manually for tasks generated by other sources.

ASSERT systems are categorized based on the system’s needed level of confidentiality,
integrity, and availability, as explained in FIPS 199 guidelines.




                                              24 

                                                                                                 10-P-0058


                                                                                             Appendix B

                              OIG Analysis of Results
We selected the following five system-specific security controls to determine whether the system’s
security plans fully supported the self-assessments, as reported in EPA’s ASSERT.

Technical Controls                                 Operational Controls
(AC-2)    Account Management                       (CM-5) Configuration Management: Access
                                                            Restriction for Change
(AC-13)     Supervision and Review                 (MA-2) Maintenance: Controlled Maintenance
(AU-2)      Auditable Events
Source: OIG compiled data based on security controls selected from NIST Special Publication 800-53.

Appendix C contains the description of the security controls and the associated enhancements
reviewed.

We reviewed 408 data entries associated with these security controls. Only 17 percent (71 of 408)
of the ASSERT data entries were supported by systems security plans.

Assessment Methodology

The security controls we reviewed were unique to the 51 systems listed in the following table.
Each security control evaluated had to receive a passing grade of “Yes” in order for the
comparative analysis between the ASSERT data and security plan to receive a cumulative passing
grade. Any security control that received a nonpassing grade of “No” would result in a cumulative
nonpassing grade. We did not project any errors to EPA’s universe of systems in ASSERT,
because our sample was not statistically selected.

The base control and enhancements are indicated in the following table by the following
abbreviations:

        BC - Base control 

        E1 - Enhancement 1 

        E2 - Enhancement 2 

        E3 - Enhancement 3 

        E4 - Enhancement 4 





                                                    25 

                                                                                                                                10-P-0058


  The information below identifies the 51 systems selected from ASSERT as part of this audit and the results of our analysis.
                                                           Did the system security plan support the FY2007 self-assessment in
                                                           EPA’s ASSERT database?
System      System                 Program or Regional                AC-2                 AC-13     AU-2      CM-5           MA-2
Category    Name                   Office                  BC E1 E2 E3 E4 BC E1                       BC     BC E1 BC E1 E2

High        NAREL Radiation        Office of Air and        N     N          N   N   N   N     N       N      N     N     N      N    N
            Network                Radiation
Moderate    EEONet                 Office of the            N     N          N   N   -   N      -      N      N     -     N      N     -
                                   Administrator
            Energy Star            Office of Air and        Y     Y          Y   N   -   Y      -     N       Y     -     Y      Y     -
                                   Radiation
            LNS                    Office of Air and        N     N          N   N   -   N      -     N       N     -     N      N     -
                                   Radiation
            OAR LAN- 1310          Office of Air and        N     N          N   N   -   N      -     N       N     -     N      N     -
                                   Radiation
            Federal Retirement     Office of                N     N          N   N   -   N      -     N       N     -     N      N     -
            Benefits Calculator    Administration and
                                   Resources Management
            Grants Information     Office of                N     N          N   N   -   N      -     N       N     -     N      N     -
            Control System         Administration and
                                   Resources Management
            Budget Automation      Office of Chief          N     Y          N   Y   -   N      -      N      N     -     N      N     -
            System                 Financial Officer
            Contract Payment       Office of Chief          N     N          N   N   -   N      -      Y      N     -     Y      Y     -
            System                 Financial Officer
            Financial Data         Office of Chief          N     N          N   N   -   N      -     N       N     -     N      N     -
            Warehouse              Financial Officer
            PeoplePlus             Office of Chief          Y     N          Y   N   -   Y      -     Y       Y     -     N      N     -
                                   Financial Officer
            NEIC LAN               Office of Enforcement    Y     Y          Y   N   -   Y      -     Y       Y     -     N      N     -
                                   Compliance and
                                   Assurance
            OECA LAN               Office of Enforcement    N     N          N   N   -   N      -     N       N     -     N      N     -
                                   Compliance and
                                   Assurance




                                                                      26 

                                                                                                                                10-P-0058 





                                                                      Did the system security plan support the FY2007 self-assessment in
                                                                      EPA’s ASSERT database?
System     System                  Program or Regional                          AC-2               AC-13      AU-2     CM-5         MA-2
Category   Name                    Office                             BC E1 E2 E3 E4 BC E1                     BC    BC E1 BC E1 E2

           Waste International     Office of Enforcement               N       Y   N   N   -    Y     -     N      N    -   N     N     -
           Tracking System         Compliance and Assurance
           AAA Remote Access       Office of Environmental             N       N   N   N   -    N     -     N      N    -   N     N     -
           System                  Information
           Active Directory        Office of Environmental             N       N   N   N   -    N     -     N      N    -   N     N     -
                                   Information
           Automated System        Office of Environmental             Y       N   Y   Y   -    N     -     Y      Y    -   N     N     -
           Security Evaluation     Information
           and Remediation
           Tracking
           Enterprise Server       Office of Environmental             N       N   N   N   -    N     -     N      Y    -   N     N     -
                                   Information
           EPA Enterprise Portal   Office of Environmental             N       N   N   N   -    N     -     N      N    -   N     N     -
                                   Information
           Internet Operations     Office of Environmental             N       N   N   N   -    N     -     N      N    -   N     N     -
           and Maintenance and     Information
           Enhancements
           Remedy                  Office of Environmental             N       N   N   N   -    N     -     N      Y    -   N     N     -
                                   Information
           SRA Arlington           Office of Environmental             Y       Y   Y   Y   -    Y     -     Y      Y    -   Y     Y     -
                                   Information
           Shared Services         Office of Environmental             N       N   N   N   -    N     -     N      N    -   N     N     -
                                   Information
           WebForms                Office of Environmental             N       N   N   N   -    N     -     N      N    -   N     N     -
                                   Information
           OGC Local Area          Office of General Counsel           N       N   N   Y   -    N     -     N      N    -   N     N     -
           Network
           Office of Pesticide     Office of Prevention, Pesticides    N       Y   N   N   -    N     -     N      N    -   N     N     -
           Programs Information    and Toxic Substances
           Network
           OPP LAN                 Office of Prevention, Pesticides    N       N   N   N   -    N     -     Y      N    -   N     N     -
                                   and Toxic Substances


                                                                        27 

                                                                                                                                 10-P-0058 



                                                                       Did the system security plan support the FY2007 self-assessment in
                                                                       EPA’s ASSERT database?
System     System                   Program or Regional                          AC-2               AC-13      AU-2     CM-5         MA-2
Category   Name                     Office                             BC E1 E2 E3 E4 BC E1                     BC    BC E1 BC E1 E2

           OPPT Admin LAN           Office of Prevention, Pesticides    N       N   N   N   -    N     -     N      N    -   N     N     -
                                    and Toxic Substances
           OPPT CBI LAN             Office of Prevention, Pesticides    N       N   N   N   -    N     -     N      N    -   N     N     -
                                    and Toxic Substances
           Office of Research and   Office of Research and              N       N   N   N   -    N     -     N      N    -   N     N     -
           Development              Development
           Management Info
           Office of Research and   Office of Research and              N       N   N   N   -    N     -     N      N    -   N     N     -
           Development RTP          Development
           GSS
           SRMP                     Office of Solid Waste and           N       N   N   N   -    N     -     N      N    -   N     N     -
                                    Emergency Response
           OGWDW LAN                Office of Water                     N       N   N   N   -    N     -     N      N    -   N     N     -
           Container
           OWOW LAN                 Office of Water                     Y       Y   Y   Y   -    Y     -     Y      Y    -   N     Y     -
           Container
           STORET                   Office of Water                     N       Y   Y   Y   -    N     -     N      N    -   N     N     -
           Region 2 LAN             Region 2                            Y       N   N   N   -    N     -     Y      N    -   N     N     -
           Region 4 LAN             Region 4                            N       N   N   N   -    N     -     Y      N    -   N     N     -
           GSSP for R5 USEPA        Region 5                            N       N   N   N   -    N     -     N      N    -   N     N     -
           Region 7 LAN             Region 7                            N       N   N   N   -    N     -     N      Y    -   N     N     -
           Region 8 LAN             Region 8                            N       N   N   N   -    N     -     N      N    -   N     N     -
Low        OTAQ-IO NDS              Office of Air and Radiation         N       -   -   -   -    N     -     N     N/A   -   N     -     -
           Container-ARB
           FIFRA/TSCA               Office of Enforcement               Y       -   -   -   -    N     -     N     N/A   -   Y      -    -
           Tracking Systems         Compliance and Assurance
           National Compliance
           Database
           Laboratory Inspection    Office of Enforcement               N       -   -   -   -    N     -     N     N/A   -   N      -    -
           and Study Audit          Compliance and Assurance
           Architecture             Office of Environmental             Y       -   -   -   -    N     -     Y     N/A   -   Y      -    -
           Repository and Tool      Information



                                                                         28 

                                                                                                                             10-P-0058 



                                                                 Did the system security plan support the FY2007 self-assessment in
                                                                 EPA’s ASSERT database?
System       System                  Program or Regional                   AC-2               AC-13      AU-2     CM-5         MA-2
Category     Name                    Office                      BC E1 E2 E3 E4 BC E1                     BC    BC E1 BC E1 E2

             Toxic Release           Office of Environmental      N        -    -   -   -   N    -        N   N/A   -   N       -    -
             Inventory-Made Easy     Information
             Voice over IP           Office of Environmental      Y        -    -   -   -   Y    -        N   N/A   -   Y       -    -
                                     Information
             National Homeland       Office of Research and       N        -    -   -   -   N    -        N   N/A   -   N       -    -
             Security Research       Development
             Center - CINC
             Nheerl-Corvallis        Office of Research and       N        -    -   -   -   N    -        Y   N/A   -   Y       -    -
                                     Development
             Nheerl-Gulf Breeze      Office of Research and       N        -    -   -   -   N    -        N   N/A   -   N       -    -
                                     Development
            Assessment, Cleanup      Office of Solid Waste and    N        -    -   -   -   N    -        Y   N/A   -   N       -    -
            & Redevelopment          Emergency Response
            Exchange System
            Institutional Controls  Office of Solid Waste and     N        -    -   -   -   N    -        Y   N/A   -   N       -    -
            Tracking System         Emergency Response
Total Number of Entries = 408                                    51       40   40   40 1    51   1   51       40    1   51     40 1
(Total Number of Supportable Entries (denoted with Y) = 71       10       8    7    6 0     7    0   13       9     0   7      4 0
Y = Yes
N = No
Dash (-) means the enhancement was not a required security control to be evaluated based on the application’s system category.

N/A = Per NIST Special Publication 800-53 Rev. 1, Recommended Security Controls for Federal Information Systems, December
2006, configuration management (CM-5) access restriction for change is not a required security control to be assessed for “low-
impact” information systems. Additionally, this security control was not listed as an evaluation control in ASSERT for Agency
systems reviewed with a “low” system categorization. Therefore, the OIG did not believe it was necessary to conduct audit work
on this security control.
  Source: OIG-compiled data based on EPA’s ASSERT data and security plans.




                                                                   29 

                                                                                       10-P-0058 



                                                                                     Appendix C


                               Description of 

                         Reviewed Security Controls 


The information below provides the description of each base control and the associated control
enhancements for the applicable system risk categorization. The source for this table is NIST
Special Publication 800-53 Rev. 1, Recommended Security Controls for Federal Information
Systems, December 2006.

                                 System Risk Categorization
  Class: Technical                                                     High   Moderate Low
  Security Control Family: Access Control (AC)
  AC-2 Account Management:

  Base Control: The organization manages information system             X        X        X
  accounts, including establishing, activating, modifying,
  reviewing, disabling, and removing accounts. The organization
  reviews information system accounts.
  Control Enhancements:
  (1) The organization employs automated mechanisms to support          X        X
  the management of information system accounts.

  (2) The information system automatically terminates temporary
                                                                        X        X
  and emergency accounts [Assignment: organization-defined time
  period for each type of account].

  (3) The information system automatically disables inactive            X        X
  accounts after [Assignment: organization-defined time period].

  (4) The organization employs automated mechanisms to audit            X        X
  account creation, modification, disabling, and termination actions
  and to notify, as required, appropriate individuals.




                                                   30 

                                                                                  10-P-0058 





                                System Risk Categorization
Class: Technical                                                    High   Moderate Low
Security Control Family: Access Control (AC)
AC-13 Supervision and Review - Access Control

Base Control: The organization supervises and reviews the            X        X      X
activities of users with respect to the enforcement and usage of
information system access controls.
Control Enhancement: The organization employs automated              X        X
mechanisms to facilitate the review of user activities.

Security Control Family: Audit and
Accountability (AU)
AU-2 Auditable Events

Base Control: The information system generates audit records         X        X      X
for the following events: [Assignment: organization-defined
auditable events].
Control Enhancements:
(1) The information system provides the capability to compile        X
audit records from multiple components throughout the system
into a systemwide (logical or physical), time-correlated audit
trail.

(2) The information system provides the capability to manage the     X
selection of events to be audited by individual components of the
system.

(3) The organization periodically reviews and updates the list of    X        X
organization-defined auditable events.




                                                 31 

                                                                                     10-P-0058 





                                System Risk Categorization
Class: Operational                                        High            Moderate    Low
Security Control Family: Configuration
Management (CM)
CM-5 Access Restriction for Change

Base Control: The organization approves individual access             X      X         N/A
privileges and enforces physical and logical access restrictions
associated with changes to the information system, and
generates, retains, and reviews records reflecting all such
changes.
Control Enhancement: The organization employs automated               X
mechanisms to enforce access restrictions and support auditing of
the enforcement actions.

Security Control Family: Maintenance (MA)
MA-2 Controlled Maintenance

Base Control: The organization schedules, performs,                   X      X          X
documents, and reviews records of routine preventative and
regular maintenance (including repairs) on the components of the
information system in accordance with manufacturer or vendor
specifications and/or organizational requirements.
MA-2 Controlled Maintenance

Control Enhancements:
(1) The organization maintains maintenance records for the            X      X
information system that include: (a) the date and time of
maintenance; (b) name of the individual performing the
maintenance; (c) name of escort, if necessary; (d) a description of
the maintenance performed; and (e) a list of equipment removed
or replaced (including identification numbers, if applicable).

(2) The organization employs automated mechanisms to schedule         X      X
and conduct maintenance as required, and to create up-to-date,
accurate, complete, and available records of all maintenance
actions, both needed and completed.




                                                  32 

                                                                                    10-P-0058


                                                                                Appendix D

                                    Distribution

Office of the Administrator
Acting Assistant Administrator for Environmental Information and Chief Financial Officer
Acting Director, Office of Technology Operations and Planning,
       Office of Environmental Information
Acting Director, Technology and Information Security Staff,
       Office of Environmental Information
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Environmental Information
Acting Inspector General




                                              33 

